                                                                                                                                                      •....   ~--.··.·_·'··.·'·•• -r·~'_':""'·•• ~-,~-.




            ;f
        j
        I
I
[
(f
  il/




                                                                        US OFFICE OF PERSONNEL MANAGEMENT
                                                                            OFFICE OF THE INSPECTOR GENERAL .'
                                                                                             OFFICE OF AUDITS




                                       .           . ..          .. .   . .          .




                 ·'inal A,lltlit'1\epOrt .

                 "Subj~ct:




                                                             .                   .

                                                           Report Np.3A:~(~F'-OO~08-031 .


                                                           Date:        ··June1§«           20(}9



                     (   .



                                                                              . -~CAUTION--
                   ThissUI:lit report has bun distributed to Fed~ralomdalswho ar~j-csl>oDsiblc for the administration ()Hbeaudilcdprogrllm~ This audit .
                                                            is
                   rcpiJrt mliy .contain proprietirydata whiCh p~olede!I by F~deraIlaW (18 U.S~c. J 905); therHore, wbile this audit report is avail able
                  ·undtdbe FreedomorJnformatioiJAct, ~antion needs.to be exercised before releasing thereporttothe general public.               .
/

I

r
                                UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                     Washington, DC 20415


       Office of the
    Inspector General




                                                 AUDIT REPORT



                                       AUDIT OF THE 2005 AND 2006

                                        NORTH CENTRAL TEXAS

                                     COMBINED FEDERAL CAMPAIGNS

                                            DALLAS, TEXAS




                        Report No. 3A-CF-OO-08-031                     Da~:     June 18, 2009




                                                                            ~cL-

                                                                            Michael R. Esser
                                                                            Assistant Inspector General
                                                                              for Audits




            www.opm.gov                                                                             www.lIsaJobs.gQV
                            UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                                 Washington, DC 20415



   Office of the
Inspector General




                                        EXECUTIVE SUMMARY.





                                   AUDIT OF THE 2005 AND 2006

                                    NORTH CENTRAL TEXAS

                                 COMBINED FEDERAL CAMPAIGNS

                                        DALLAS, TEXAS



                    Report No. 3A-CF-OO-08-031                       Date: June 1 8 , 2009

       The Office of the Inspector General has completed an audit of the 2005 and 2006 North Central
       Texas Combined Federal Campaigns (CFC). The United Way of Metropolitan Dallas, located in
       Dallas, Texas, served as the Principal Combined Fund Organization (PCFO) during both
       campaigns. Our main objective was to determine if the North Central Texas CFC was in
       compliance with Title 5, Code of Federal Regulations, Part 950 (5 CFR 950), including the
       responsibilities of both the PCFO and Local Federal Coordinating Committee (LFCC). The
       audit identified six instances or non-compliance with the regulations (5 CFR 950) goveming the
       CFC.

                                   BUDGET AN]) CAMPAIGN EXPENSES

       •        Unallowable Campaign Expenses

                The PCFO charged the 2006 Cf'C Campaign $85,328 in unallowable expenses.

       •        PCFO Expense Reimbursement Not Properly Authorized

                The PCFO's 2006 campaign expenses were not properly authorized by the LFCC before
                reimbursement.




           www.opm.go\l                                                                      www.usajobs.go\l
•    CFC Expenses Not Reconcilable to the Approved Budget

      The PCFO did not maintain its CFC expenses in a format that was reconcilable to the
                   , by the LFCC.
      budget approved

                     CAMPAIGN RECEIPTS AND DISBURSEMENTS

•	    CFC Funds Maintained Incorrectly

      The PCFO did not maintain CFC funds separate from its corporate funds and did not keep
      the funds in an interest bearing account.

•	    Incomplete Donor Lists

      The PCFO did not provide all federations with a donor list that indicated which member
      organizations were to receive the donor's information.


                                        ELIGIBILITY


•	    Local Eligibility Solicitation Process Documentation Not Maintained

      The LFCC did not maintain documentation to support that it accepted local charity
      applications for eligibility in the 2006 campaign for 30 calendar days.




                                               11
                                     CONTENTS
                                                                                       PAGE

       EXECUTIVE
               , SUMMARy                                                                  i

 I.    INTRODUCTION AND BACKGROUND                                                        1


II.    OBJECTIVES, SCOPE, AND METHODOLOGy                                                 3


III.   AUDIT FINDINGS AND RECOMMENDATIONS                                                 7


           A. BUDGET AND CAMPAIGN EXPENSES                                              , 7

              1. Unallowable Campaign Expenses                                            7

              2. PCFO Expense Reimbursement Not Properly Authorized                       13

              3. CFC Expenses Not Reconcilable to the Approved Budget                     14


           B. CAMPAIGN RECEIPTS AND DISBURSEMENTS                                         15

              1. CFC Funds Maintained Incorrectly                                         15

              2. Incomplete Donor Lists                                                   16


           C. ELIGIBILITY                                                                 17

              1. Local Eligibility Solicitation Process Documentation Not Maintained      17


IV.    MAJOR CONTRIBUTORS TO TI-IIS REPORT                                                19


       APPENDIX A: (The PCFO and LFCC's response, dated January 6,2009, to the draft
                   audit report.)
       APPENDIX B: (The PCFO and LFCC's response, dated February 10,2009, to the draft
                   audit report.)
                       I. INTRODUCTION AND BACKGROUND


Introduction
                   •
This report details the findings, conclusions, and recommendations resulting from our audit of
the North Central Texas Combined Federal Campaigns (CFC) for 2005 and 2006. The audit was
performed by the Office of Personnel Management's (OPM) Office of the Inspector General
(OIG), as authorized by the Inspector General Act of 1978, as amended.

Background

The CFC is the sole authorized fund-raising drive conducted in Federal installations throughout
the world. It consists of278 separate local campaign organizations located throughout the
United States, including Puerto Rico, the Virgin Islands, and Foreign assignments. The Office of .
Combined Federal Campaign Operations (OCFCO) at OPM has the responsibility for
management of the CFC. This includes publishing regulations, memorandums, and other forms
of guidance to Federal officials and private organizations to ensure that all campaign objectives
are achieved.

CFC's are conducted by a Local Federal Coordinating Committee (LFCC) and administered by a
Principal Combined Fund Organization (PCFO). The LFCC is responsible for organizing the
local CFC, determining the eligibility oflocal voluntary organizations, selecting and supervising
the activities of the PCFO, and acting upon any problems relating to a voluntary agency's
noncompliance with the policies and procedures of the CFe. The PCFO is responsible for
training employee key-workers and volunteers; preparing pledge cards and brochures;
distributing campaign receipts; submitting to an extensive and thorough audit of its CFC
operations by an Independent Certified Public Accountant (IPA) in accordance with generally
accepted auditing standards; cooperating fully with OIG audit staff during audits and
evaluations; responding in a timely and appropriate manner to all inquiries from participating
organizations, the LFCC, and the Director of OPM; and consulting with federated groups on the
operation of the local campaign.

Executive Orders No. 12353 and No. 12404 established a system for administering an annual
charitable solicitation drive among federal civilian and military employees. Title 5, Code of
Federal Regulations Part 950 (5 CFR 950), the regulations governing CFC operations, sets forth
ground rules under which charitable organizations receive federal employee donations.
Compliance with these regulations is the responsibility of the PCFO and LFCC. Management of
the PCFO is also responsible for establishing and maintaining a system of internal controls.

Our previous audit ofthe North Central Texas CFC was completed in 2001 and covered
campaign years 1998 and 1999. The audit identified seven areas of non-compliance which were
satisfactorily resolved through the OCFCO.

The initial results of our audit were discussed with PCFO and LFCC officials during an exit
conference held on May 1,2008. A draft report was provided to the PCFO and the LFCC on
December 1,2008 for review and comment. The PCFO and LFCC's responses to the draft
report were considered in preparation of this final report and are included as Appendices.




                                               2

               II. OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES

The primary purpos~ of our audit was to determine if the North Central Texas CFC was in
compliance with 5 CFR 950, including the activities of both the PCFO and LFCC. Our specific
audit objectives for the 2006 campaign were as follows:

       Eligibility
           •	 To determine if the charitable organization application process was open for the
               required 30 day period; if applications were appropriately reviewed, evaluated,
               and approved; and if the appeals process for rejected applicants was followed.

       Budget and Campaign Expenses
          •	 To determine if the PCFO's budget was in accordance with the regulations.
          •	 To determine if expenses charged to the campaign were actual, reasonable, did
              not exceed 110 percent of the approved budget, and were properly allocated.

       Campaign Receipts and Disbursements
          •	 To determine if the total amount of funds received for the campaign, plus interest
             income and less expenses, was properly distributed to the designated
             organizations.
          •	 To determine if the total amount of undesignated funds was properly allocated
             and distributed to the various CFC participants,

       PCFO as a Federation
          •	 To determine if the PCFO distributed funds only to member agencies.
          •	 To determine if the PCFO charged its member agencies for expenses in a
             reasonable manner.

Additionally, our audit objective for the 2005 campaign was:

       Audit Guide Review
          •	 To determine if the IPA completed the Agreed-Upon Procedures (AUP) as
              outlined in the CFC Audit Guide (For Campaigns with Pledges $1 Million and
              Greater) for the 2005 campaign.

SCOPE AND METHODOLOGY

We conducted this performance audit in accordance with generally accepted govenunent
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on the audit objectives.




                                               .,
                                               oJ
The audit covered campaign years 2005 and 2006. The United Way of Metropolitan Dallas
(UWMD), located in Dallas, Texas, served as the PCFO during both campaigns. The audit
fieldwork was conducted at the offices of the PCFO from April 28 through May 2, 2008.
Additional audit work was completed at our Washington, D.C. office.
                   •
The North Central Texas eFC received campaign pledges, collected campaign receipts, and
incurred campaign administrative expenses for the 2005 and 2006 campaigns as shown below:

    Campaign               Total                       Total               Administrative
      Year                Pledges                     Receipts               Expenses

      2005              $2,954,491	                  $2,749,540               $231,900
      2006              $4,552,796	                  $4,258,626               $390,122

In conducting the audit we relied to varying degrees on computer-generated data. Our review of
a sample of campaign expenses and supporting data, a sample of pledge card entries, and the
distribution of campaign contributions and related bank statements, verified that the computer­
generated data used in conducting the audit was reliable. Nothing else carne to our attention
during our review of the data to cause us to doubt its reliability.

We considered the campaign's intemalcontrol structure in planning the audit procedures. We
gained an understanding of management procedures and controls to the extent necessary to
achieve our audit objectives. We relied primarily on substantive testing rather than tests of
internal controls. The audit included such tests of the accounting records and such other auditing
procedures as we considered necessary to determine compliance with 5 CFR 950 and CFe
Memorandums.

In order to determine that the LFCC and PCFO were in compliance with CFC regulations in
regards to eligibility, we reviewed the following:
    •	 The public notice to prospective charitable organizations to determine if the LFee
       accepted applications from organizations for at least 30 days.
    •	 The process and procedures for the application evaluation process.
    •	 Sample eligibility letters to verify they were properly sent by the LFCC.
    •	 The LFCC's processes and procedures for responding to appeals from organizations.

In regard to our objectives concerning the budget and campaign expenses, we accomplished the
following:
    •	 Reviewed the PCFO application and completed the PCFO application checklist.
    •	 Reviewed a copy of the public notice to prospective PCFO's, and LFCC meeting minutes
        related to the selection ofthe PCFO.
    •	 Traced and reconciled amounts on the PCFO's Schedule of Actual Expenses to the
        PCFO's general ledger.
    •	 Reviewed supporting documentation for a judgmental sample of 100 actual expense
        transactions from 10 expense accounts (out of a total of 56 expense accounts). Accounts
        were judgrnentally selected based on a nomenclature review, as well as high dollar
        amounts paid.



                                                4

   •	 Reviewed the LFCC meeting minutes and verified if the LFCC authorized the PCFO's
      reimbursement of campaign expenses.
   •	 Compared the budgeted expenses to actual expenses and determined if actual expenses
      exceeded 110 percent of the approved budget.

To determine if the campaign receipts and disbursements were handled in accordance with CFC
regulations, we reviewed the following:
    •	 A judgmental sample of 36 out of 13,368 pledge cards (selected the top 25 pledge cards
        by total amount pledged and judgmentally selected II pledge cards from 2 agencies that
        were not attributable to an individual) and compared them to the Pledge Card Report
        prepared by the PCFO.
    •	 Cancelled distribution checks to verify that the appropriate amount was distributed in a
        timely manner.
    •	 One-time payments to verify that the PCFO properly calculated pledge loss and disbursed
        the funds in accordance with the ceiling amount established by the LFCC.
    •	 The PCFO's most recent listing of outstanding checks to verify that the PCFO was
        following its policy for such checks.
    •	 The Pledge Notification Letters to verify that the PCFO notified the CFC agencies of the
        designated and undesignated amounts due them before the March 15, 2006 deadline.
    •	 The donor list letters sent by the PCFO to organizations to verify the letters properly
        notify the organization of the donors who wish to be recognized.
    •	 FOID1S 1417 provided by the PCFO and the OCFCO to identify material differences.
    •	 The PCFO Distribution Schedule to verify whether monthly disbursements reconcile with
        the PCFO's Campaign Receipts and Disbursements Schedule.
    •	 All bank statements used by the PCFO for the 2006 campaign to verify that the PCFO
        was properly accounting for and distributing funds.
    •	 The PCFO's cutoff procedures and bank statements to verify that funds were allocated to
        the appropriate campaign year.
    •	 The General Designation Options and Undesignated Funds Spreadsheet and the
        Allocations and Disbursements Spreadsheet to verify disbursements were accurate and
        proportionate to the PCFO's allocation rates.

To determine if the PCFO was in compliance with the CFC regulations as a federation (UWMD),
we reviewed the following:
   •	 Data reported on the CFe Receipts Schedule with supporting documentation to verify
       whether receipts were properly recorded.
   •	 The CFC Distribution Schedule to ensure that the UWMD did not disburse any funds to
       member agencies not participating in the 2006 CFe.
   •	 The UWMD contract with its member agencies to determine if the fees were reasonable
       and supported.

The samples, mentioned above, that were selected and reviewed in performing the audit were not
statistically based. Consequently, the results could not be projected to the universe since it is
unlikely that the results are representative of the universe taken as a whole.




                                               5

Finally, to accomplish our objective for the Audit Guide Review, we reviewed the CFC Audit
Guide (for campaigns with pledges greater than $1 million) and determined the type of audit to
be completed by the IPA for the 2005 campaign. We also completed the AUP checklist to verify
that the IPA completed and documented the AUP steps.
                    •




                                              6

             III. AUDIT FINDINGS AND RECOMMENDATIONS

The PCFO and LFCC administered the 2005 and 2006 North Central Texas CFCs in compliance
with all applicable CFC regulations with the exception of the following areas.

A.   BUDGET AND CAMPAIGN EXPENSES

     1.   Unallowable Campaign Expenses	                                                $85,328

          Based upon our review of the expense samples provided by the PCFO, we identified
          $85,328 in unallowable expenses charged to the 2006 CFC.

          5 CFR 950.106 (a) states that the PCFO "shall recover from the gross receipts of the
          campaign its expenses, approved by the LFCC, reflecting the actual costs of
          administering the local campaign." Additionally, 5 CFR 950.106 (b) states that the
          PCFO "may only recover campaign expenses from receipts collected for that
          campaign year."

          Furthermore, 5 CFR 950.105 (d) (7) states that the PCFO is responsible for
          "Maintaining a detailed schedule of its actual CFC administrative expenses with, to
          the extent possible, itemized receipts for expenses."

          Wejudgmentally selected 100 general ledger (OL) transactions charged to the CFC
          from 10 judgmentally selected accounts to determine if the costs were actual, related
          to the CFC, and charged ~o the correct campaign year. For allocated transactions, we
          also determined whether the allocation was reasonable and accurate. Our review
          identified $85,328 in charges that did not meet our review requirements. The errors
          identified resulted from the following:

             •	   $39,746 in charges that were not supported by actual invoices and/or receipts
                  as required by the Federal regulations, Specifically, we identified the
                  following:

                     o	   $24,910 in Regular Salaries (account 7010) where the amount charged
                          to the GL did not reconcile to the supporting documentation (payroll
                          registers) provided to us for transactions occurring from March 2006
                          through February 2007.

                     PCFO Comments:

                     The PCFO disagrees with this portion of the finding; however, no
                     reasoning was provided for the disagreement.




                                               7
                                                                                c·   •• '   • • , ; . ' ,• •   '~             :~ ~.-:. . . . ~" . ~ ". ".~-~.:_. . . . . ;-.._"--_,
                                                                                                                    , . , :....




       OIG Comments:

       We reviewed the payroll registers provided by the PCFO to support the
       charges to the CFC for regular salaries and compared the costs charged to
       the CFC departments (120 and" 320) and found that the costs charged to
       the CFC exceeded the actual salary costs allocated to the CFC departments
       in the payroll registers. As no additional explanation was provided by the
       PCFO, the finding remains in our report.

       o	   We identified $]4,836 charged to Temporary Salaries (account
            number 7020-320) where there was no supporting documentation
            provided for the charges to the CFC.

       PCFO Comments:

       The PCFO disagrees with this portion ofthe finding. It states that the
       costs related to these questioned costs do not entail an invoice and/or
       receipt since they are not services rendered by a temporary agency due to
       the sensitivity of the data handled by pledge card processors. To support
       that CFC work was being completed it enclosed copies of pledge
       processing report envelopes which contain the signature and initials of the
       employee in question.

       OIG Comments:

       The PCFO did not provide documentation to support the charges in
       question. The charges to the CFC must be supported to be chargeable to
       the CFC. If the costs charged were not for temporary employees (as stated
       by the PCFO), then the documentation supporting the charges to the CFC
       (i.e., payroll register and any allocation documentation ~ which the PCFO
       provided for "Regular Salaries") must be maintained for the costs to be
       chargeable to the CFC.

•	 $22,163 in charges that were the result of incorrect, inaccurate, or unsupported
   allocation methodologies. Specifically, we identified the following:

       o	   $21,911 charged to Temporary Salaries (account 7020-120) where the
            allocation percentage used to charge costs to the CFC was not backed
            by verifiable documentation. Additionally, the invoices and time cards
            provided did not indicate that the temporary employee charges were
            related to the CFC.

       PCFO Comments:

       The PCFO disagrees with this portion of the finding and states that the
       CFC Director (a member of the PCFO) requested the use of the temporary



                                 8

employees, approved the invoices, and determined the allocation
percentage used to charge the costs to the CFC.

DIG Comments:

The PCFO did not provide sufficient documentation to support the
determination of the allocation percentage used to charge costs to the
CFC. As stated above, the invoices do not indicate or support what work
was done by the temporary employee (the invoices only indicate the
temporary employee name, hours worked, and hourly rate charged).

The PCFO provided a copy of an E-mail from the CFC Director
(previously provided and reviewed) which states a 96 percent allocation to
the CFC. This E-mail is not sufficient documentation because it does not
show the determining factors for the allocation percentage. The E-mail
simply states that the allocation was based on "this year's budget
allocations." The Federal regulations require that the PCFO only recover
expenses that are based on the "actual costs of administering the local
campaign." Simply providing an E-mail which states it is basing the
allocation of costs on a budget formula is not adhering to this regulation
requirement.

o	   We identified $2,157 in the Health Benefits (account 7130) and $310
     in Regular Salaries (account 7010) accounts where either inconsistent
     or inaccurate allocation methodologies were applied. Our review for
     the health benefits account focused on OL transactions for July
     through August 2006, while our review of regular salaries focused on
     all GL transactions from March 2006 through February 2007.

PCFD Comments:

The PCFO agrees with this portion of the finding and recognizes that
calculation errors were made. It goes on to further state that once the new
Chief Financial Officer is on board (February 2009) a revised process will
be implemented to alleviate repeated miscalculations.

DIG Comments:

We accept the PCFO's response; however, it is the responsibility of the
PCFO to correct the errors identified in this audit, review the following
year's calculations and make any necessary adjustments.

o	   We identified $2,215 in Electrical Utilities (account 7510) that were
     undercharged to the CFC. During the audit, the PCFO informed us
     that charges to this account were allocated based on a headcount ratio.
     For the CFC during this period the ratio was 4.98 percent for



                           9

            department 120 and 0.35 percent for department 320. However, our
            review of the electrical utility invoices for June through December of
            2006 showed that the actual allocation percentages used were 2.43
            percent and 0.47 percent respectively.

       PCFO Comments:

       The PCFO agrees with this portion of the finding.

•	 $15,229 in charges where we could not verify whether the costs charged were
   related to the CFC from the supporting documentation provided. Specifically,
   we identified the following:

       a	   $11,951 in Regular Salaries paid to United Way employees that were
            not listed as working on the CFC in the salary allocation spreadsheets
            provided to us.

       PCFO Comments:

       The PCFO did not have an opportunity to respond to this portion ofthe
       finding as it was identified as a result of additional documentation
       provided in response to the draft report.

       a	   We identified $] ,546 in Out-of Town Travel expenses (account
            number 7850) where documentation was provided by the PCFO,
            however, it did not tie back to the GL. Therefore, we could not
            determine if the costs were related to the CFC. Additionally, all of the
            documentation provided for this account did not indicate what the
            travel was for (i.e., there were no agendas or meeting invitations to
            show that the travel was related to the CFC).

       PCFO Comments:

       The PCFO disagrees with this portion of the finding; however, no
       reasoning was provided for the disagreement. Based on documentation
       provided by the PCFO, the finding was reduced from $3,025 to $1,546.

       OIG Comments:

       It is the responsibility of the PCFO to maintain documentation that not
       only supports the amount of the charge to the CFC, but also that the
       charges reflect the "actual costs of administering the local campaign."
       Maintaining documentation that merely shows travel occurred does not
       indicate if the travel was a cost necessary for administering the local
       campaign.




                                 10

       o	   We identified $1,418 in cell phone charges (account 7415) where we
            could not tell if the charges were related to the crc. The cell phones
            were assigned to specific personnel, but were charged 100 percent to
            the CFC. The expenses should be charged using an allocation method
            similar to how salaries are allocated.

       PCFO Comments:

       The PCFO agrees with this portion of the finding and states that it will
       make necessary changes for the 2008 campaign and thereafter.

       OIG Comments:

       It is the responsibility of the PCFO to review all cell phone charges to the
       CFC, determine the actual overcharge to the CFC, and make corrections
       for the 2006 and later campaigns, not only the 2008 campaign and later.

       o	   We.identified $314 in Campaign Aids (account 8020) related to two
            transactions where the documentation provided did not indicate that
            the charges were related to the CFC.

       PCFO Comments:

       The PCFO disagrees with this portion of the finding; however, no
       reasoning was provided for the disagreement.

       DIG Comments:

       The PCFO provided supporting documentation for the two receipts
       questioned. However, the receipts provided as support for the transactions
       do not indicate that the purchases (gift cards) benefited the CFC.

•	 $8,190 in Accounting Fees (account 7210) that were charged to the 2006
   campaign in elTor. The PCFO charged the CFC for Auditing Fees related to
   the Agreed-Upon Procedures Audit and Financial Statement Audit for a prior
   year's campaign. These costs, based on the timing of the invoice (dated
   June 19, 2006), could not be related to the 2006 campaign as it was still in
   operation.

   PCFO Comments:

   The PCFO disagrees with this portion of the finding and states that the CFC
   regulations in effect at the time the accounting fees were incurred did not
   allow audit expenses to be charged to the campaign year being audited. It also
   states that during the audit period the regulations required CFC accounts to be
   brought to a zero balance at the end of each disbursement cycle.



                                 11

       Furthermore, the PCFO stated that there was no guidance issued by the
       OCFeO until November 14,2008, and that it would follow that guidance
       from this point forward.
        ,
       OIG Comments:

       The PCFO is incorrect in its interpretation of the Federal regulations as they
       apply to the matching of expenses to campaign receipts. The regulation
       clearly states that it is the responsibility of the PCFO to recover expenses from
       gross receipts of the campaign to which they belong. The regulations do not
       state to recover expenses from the campaign in which they are incurred. The
       PCFO's assertion that the "regulations required accounts be brought to zero"
       at the end of each disbursement period falls short as it could have accrued
       (recognized the expense prior to actual payment) the expense related to the
       audits and then offset the accrual when the expense was actually incurred.

       The PCFO is also incorrect in its assertion that the OCFCO has never (until
       November 2008) issued guidance on how auditing fees should be accounted
       for. CFC Memorandum 2004-01 (dated January 4,2004) issued guidance.
       related to concerns from PCFO's who recognized that no funds were left in
       their accounts for the 2001 campaign (first year audited). The OCFCO
       allowed a one time exception to 5 CFR 950.106(b) and suggested that the
       PCFOs plan for this expense in future campaigns. Additionally, the OCFCO
       in its yearly CFC regional workshops (' Accounting for the CFC' break out
       sessions) has specifically covered these audit expenses and provided
       suggestions to those PCFO's concerned with adhering to the regulations. This
       new CFC Memorandum does not represent new guidance or an official
       change in accounting for these types of costs, but a clarification to show
       proper accounting for them as this is a common issue to all PCFOs.

As a result of these unallowable expenses, the PCFO overcharged the 2006
participating campaign organizations $85,328.

Recommendation 1

We recommend that the OCFCO ensure that the PCFO distributes $85,328 in
unallowable expenses charged to the CFC to the participating organizations of the
2006 campaign.

Recommendation 2

We recommend that the OCFCO and LFCC ensure that the PCFO understands its
responsibilities to maintain sufficient documentation to support the charges to the
cre and that the charges are related to the CFC.



                                    12
     Recommendation 3

     We recommend that the OCFCO and LFCC ensure that the PCFO maintains
     appropriate allocation support (including how allocations are determined) for all costs
     allocated. to the CFC.

     Recommendation 4

     We recommend that the OCFCO and LFCC ensure that the PCFO makes necessary
     changes to properly adhere to the clarified guidance (CFC Memorandum 2008-09)
     related to the charging of AUP expenses related to the CFC Audit Guide.

2.   PCFO Expense Reimbursement Not Properly Authorized

     The LFCC did not properly authorize the PCFO's reimbursement of campaign
     expenses for the 2006 campaign.

     5 CFR 950.104(b)(17) states that the LFCC is responsible for "Authorizing to the
     PCFO reimbursement of only those campaign expenses that are legitimate CFC costs
     and are adequately documented. Total reimbursable expenses may not exceed the
     approved campaign budget by more than 10 percent."

     We reviewed all LFCC meeting minutes provided to determine ifthe LFCC
     authorized the PCFO's reimbursement of 2006 campaign expenses. Our review of
     those meeting minutes did not identify where the LFCC approved the PCFO's
     reimbursement of expenses for the 2006 campaign year. We also did not receive any
     other proof of approval from the PCFO or LFCC.

     As a result of not properly authorizing reimbursement of campaign expenses, the
     LFCC is running the risk that expenses that are not legitimate CFC costs,
     inadequately documented costs, and/or expenses that exceed the approved budget by
     more than 10 percent may be improperly reimbursed to the PCFO, thereby reducing
     the amounts paid to participating CFC organizations.

     PCFO's Comments:

     The PCFO disagrees with this finding and stated that beginning in September 2007
     the LFCC began reviewing year-to-date CFC expense reports at its meetings,
     approves expenses as they are incurred, and is aware of its responsibilities.

     OIG Comments:

     The PCFO did not provide documentation to show the approval of its actual expenses
     reimbursed in March 2007. The steps taken by the LFCC, beginning in September
     2007, are a good first step; but they do not ensure that the costs are accurate or that
     they are legitimate CFC expenses. It would be worthwhile for the LFCC to



                                          13
                                                                                               ,~   .~. ,"   ....   -.;~,   ..   -:.~.:.-':..   ..:..:;_.;;.




     physically review a detailed CFC transaction report (by category); and not just a
     summary report, to ensure that no non-CFC expenses are included and that the reports
     are accurate prior to authorizing the PCFO to reimburse itself for campaign expenses.

     Recommendation 5

     We recommend that the OCFCO work with the LFCC to ensure that it understands its
     responsibilities as related to 5 CFR 950.1 04 (b) (17) and ensure that it properly
     authorizes the PCFO's reimbursement of campaign expenses for future campaigns.

3.   CFC Expenses Not Reconcilable to the Approved Budget

     The PCFO was reimbursed for 2006 CFC expenses from six accounts not included or
     reconcilable to its budget submitted and approved by the LFCC.

     48 CFR 950.105 (d) (7) states that it is the responsibility of the PCFO to maintain its
     expenses in a format that is reconcilable to the budget submitted to and approved by
     the LFCC.

     We reviewed the actual expense charges ofthe PCFO and compared the expenses and
     accounts charged to those proposed to the LFCC in the budget included in the PCFO
     application. Our review identified six GL accounts charged to the CFC by the PCFO
     that were not included in the budget. Costs charged to the CFC by the PCFO for
     these accounts amounted to $3,908.

     Specifically, the accounts in question are:

                7330 - Computer Software
                7340 - Other Computer Supplies
                7415 - Mobile Phones - Public Sector
                7860 - Out of Town Meal Reimbursement
                7915 - Local Meal Reimbursement
                8212 - Workers Comp Insurance

     Although these accounts, and the transactions contained within them, may be
     allowable, if the PCFO does not maintain its expense records in a format that is easily
     reconcilable to its approved budget there is a risk that unallowable charges and/or
     non-Cf'C expenses could be charged to the CFC, which would reduce the amounts
     paid to participating organizations.

     PCFO's Comments:

     The PCFO disagrees with the finding and states that according to 5 CFR 950.105 (c)
     (1) the budget submitted to the LFCC was an estimate of the costs required to operate
     the CFC and that it is "impossible" to reconcile actual expenses to an estimate. It
     goes on to further state that it has provided support to show that the costs charged



                                          14

          from the accounts in question reflect the actual costs of administering the local
          campaign. The PCFO requests that this finding be removed from the final audit
          report.

          ole Comments:
          The allowability of the costs charged from these accounts is not in question, as we
          recognize that these types of costs are often necessary for administering a local
          campaign. However, the regulations require that the budget submitted at the time the
          PCFO is selected reflect and be reconcilable to the costs ultimately charged to the
          campaign. The budget provided by the PCFO was in the format of general ledger
          accounts and the actual costs charged for six accounts were not included in its budget.
          We are requesting that the PCFO ensure that all accounts that could reasonably be
          chargeable to the CFC be included in the budget (even if the PCFO does not always
          anticipate costs to come from those accounts).

          Recommendation 6

          We recommend that the PCFO include all accounts that could reasonably charge costs
          to the CFC in the budget submitted to the LFCC to ensure that it is reconcilable to the
          format that is contained in its general ledger.

B.   CAMPAIGN RECEIPTS AND DISBURSEMENTS

     1.   CFC Funds Maintained Incorrectly

          Om review determined that the PCFO did not maintain CFC accounts separate from
          the PCFOts corporate accounts and that CFC funds were not maintained in an interest
          bearing account.

          5 CFR 950.1 05(d)(8) states that the PCFO is responsible for "Keeping and
          maintaining CFC financial records and interest-bearing bank accounts separate from
          the PCFO's internal organizations financial records and bank accounts."

          We reviewed the bank statements provided by the PCFO to determine if the PCFO
          maintained CFC accounts and PCFO accounts separately and in an interest bearing
          account. We determined that the the PCFO did not maintain a CFC only checking
          account. Instead the PCFO transferred the distributable funds to its corporate
          checking account and cut the checks from that account. Although we found no errors
          in the disbursement of CFC funds, this does not adhere to the regulations governing
          the CFC. Our review also found that the CFC funds were not maintained in an
          interest bearing account.

          As a result of the above errors, the PCFO ran the risk ofincorrectly disbursing CFC
          funds and reduced the distributions to participating organizations by not earning
          interest income.



                                               15
     PCFO's Comments:

     The PCFO agrees with the finding and stated that, effective February 2009, it has
     segregated all CFC funds from other corporate funds and is maintaining them in
     analyzedinterest bearing accounts.

     Recommendation 7

     We recommend that the OCFCO and LFCC ensure that the PCFO has ceased the
     practice of disbursing CFC funds from its corporate account and set up a CFC only
     checking account to disburse monies to participating organizations.

     Recommendation 8

     We recommend that the OCFCO and LFCC ensure that the PCFO has moved CFC
     funds to an interest-bearing bank account for CFC funds, as required by 5 CFR
     950.105(d)(8).

2.   Incomplete Donor Lists

     The PCFO did not provide all federations with donor lists that indicated which
     member organization was to receive the donor information.

     5 CFR 950.601 (c) states that "It is the responsibility of the PCFO to forward the
     contributor information for those who have indicated that they wish this information
     released to the recipient organization directly, if the organization is independent, and
     to the organization's federation if the organization is a member ofa federation."

     During our review, we requested and reviewed 10 donor lists sent to participating
     agencies and federations to determine if they were sent by the required date, if the
     PCFO did not release donor social security numbers and pledge amounts, and if the
     notifications to federations indicated which member organization was to receive the
     donor information.

     Our review determined that the donor list sent to Community Health Charities of
     Texas did not identify which member organization was to receive the donor
     information.

     As a result of not indicating which member organization was to receive the donor's
     information, the federation had no way of telling which member organization to
     release the donor information to.




                                          16

          PCFO's Comments:

          The PCFO agrees with the finding and stated that the reports have been modified to
          identify t~e federation and member agency where the donor's information should be
          sent. .

          Recommendation 9

          We recommend that the OCFCO and LFCC ensure that the PCFO indicates the
          member organization designated by the donor to receive their personal information be
          included in the donor list sent to the federation.

C.   ELIGIBILITY

     1.   Local Eligibility Solicitation Process Documentation Not Maintained

          The LFCC did not maintain documentation to support that it accepted applications
          from local charities for eligibility in the 2006 campaign for 30 calendar days as is
          required by the Federal regulations.

          5 CFR 950.801(5) states that the LFCC "must accept applications from organizations
          seeking local eligibility for 30 calendar days as determined by the LFCC ."."

          5 CFR 950.604 states that the PCFO "shall retain documents pertinent to the
          campaign for at least three completed campaign periods."

          As part of our review, we requested that the LFCC provide a copy of the public
          solicitation of local charities to participate in the 2006 campaign to determine if the
          application period was open for at least 30 calendar days.

          According to the PCFO, local applications for eligibility to participate in the 2006
          Campaign were solicited through a public notice placed on the CFC of North Central
          Texas website. We also reviewed the LFCC meeting minutes (March and April of
          2006) to determine the time frame of when local charity applications were accepted.
          Our review determined that the period opened March 10, 2006, but we were unable to
          identify a date where applications would no longer be "accepted. Therefore, we could
          not determine if applications were accepted for 30 calendar days because the LFCC
          could not provide any other supporting documentation.

          As a result of not maintaining documentation of the local charity application
          acceptance period, we could not determine if the application period was open for the
          required amount of time or if eligibility decisions were rendered within the time
          frames required by the Federal regulations.




                                                17

PCFO's Comments:

The PCFO agrees with the finding and stated that it will retain electronic copies of
public notices listed on its website.

Recommendation 10

We recommend thatthe OCFeO ensure that the LFCC maintains all documentation
pertinent to the campaign, such as information related to the period applications are
accepted from local charities wishing to participate in theCFC.




                                     18

             IV. MAJOR CONTRIBUTORS TO THIS REPORT

Special Audits Group

~uditor-In-Charge
                                              /



                   Group Chief

                  Senior Team Leader

                   Senior Team Leader




                                        19

                                                                                                       Appendix A


                                                                                      ~ 1/2$ldq)~
                       Combined Federal Campaign of North Central Texas

January 6, 2009



Office of Personnel Management
Office of the Inspector General
Attention: • • • • • •
1900 E Street NW, Room 6400
Washington, DC 20415-1100

Dear:_

In response to the OIG Draft Audit Report Findings for the 2005 and 2006 campaigns for Combined
Federal Campaign of North Central Texas (CFCNCTX) CFC Code 0839, we are submitting the following
responses and attached supporting documentation.

    I.	 Unallowable Campaign Expenses ($60,398)
           o	 No supporting documentation for $21,911 charged to Temporary Salaries (account 7020­
               120).



                                                                                         0_
                   1.	 A sample review of invoices ~and an email authorizing expenses
                       from the formerCFC D i r e c t o _ (attachment I-B), is provided.
                       _ w a s the authorizing agent acting on behalf of the LFCC. Her request to
                       contract with Dunhill Staffing Systems, Inc. resulted in the hiring
                       to which the ~aid. According to guidance contained in _
                       email 96% o _ s a l a r y was charged to CFe.

                       Request: It is requested this finding be removed from the final audit report.

           o	 Inaccurate or inconsistent allocation methods were applied to $2157 in Health Benefits
              (account 7130) and $356 in Regular Salaries (account 7010).
                 i.	 UWMD recognize the calculation errors made in the spreadsheet used. Once the
                      new Chief Financial Officer is onboard in February 2009 a revised process will
                      be implemented to alleviate repeated miscalculations. UWMD will also
                      communicate the method of future calculation to the LFCC.

           o	 CFC was undercharged $2215 in electrical utilities (account 7510).
                 i.	 The PCFO wishes not to recoup these charges, but La offset previously mentioned
                     unallowable expenses totaling $'25.13 leaving a net unallowable expense of $298.
                     The method of calculation resulting in the error will be revised as stated.

           o	 No invoice and/or receipt for $20,752 in charges.
                  i.	 Honoring employee designations and insuring anonymity of employees is the
                      responsibility of the Principal Combined Fund Organization (PCFO) as outlined
                      in 5 CFR 950.105 c3d I and 5 CFR 950.105 c3d6. In fulfilling this regulatory
                      obligation, the PCFO is responsible for hiring and providing pledge processing
                      staff (see 5 CFR 950.104 bi4) much like it does for employing the CFC Director
                      and other staff who assist with campaign operations. These positions do not
                      entail an invoice and/or receipt since they are not services rendered by a
                      temporary agency. Due to the sensitivity of data handled a background check is
                      conducted and a temp service not used for hiring pledge processing staff.
           In addition, according to state and federal employment laws, the hiring
           organization must maintain a W-4 and provide employees with an annualized
           W-2. Because CFC is not a recognized organization by the Internal Revenue
           Service (IRS) it could not engage in this hiring contract to which a receipt or
           invoice would have been possible. As such, the contract a g r e e . 'of
           application, had to be between UWMD and the employee hired                       .
           To support CFC work was being completed by                   we are enc osmg
           sample pledge processing report envelopes (attachment l-C) which contain
                           signature and initials for auditing, keying, and releasing data.

           Request: It is requested $14,836 in Temporary Salaries (account 7020-320) be
           allowed as justifiable expenses in accordance with 5 CFR 950 and in adherence
           to state and federal employment laws. It is also requested this finding be
           removed from the final audit report.

o	 Supporting documentation for $1987 in salaries did not reconcile to account 7010.
       i.	 Additional clarification from the OIG is needed before a response can be
           provided. We are however enclosing March 2006 (attachment I-D) and July
           2006 - February 2007 (attachment I-E) general ledger detail as requested.

           Request: OIG to clarify what additional supporting documentation is needed
           with a 7-10 business day response period from the PCFO.

o	 Unsupported expenses of $904.
       i.	 Actual supporting documentation and source documents for the three invoices
           totaling $904.22 are enclosed for your review (attachment I-F). The actual total
           is $906.14 since $1.92 was overpaid on a previous invoice to Purple Giraffe.

           Request: It is requested this finding be removed from the final audit report.

o	 Could not verify if $9247 was CFC related.
       1.	 Supporting documentation and source documents for the three undocumented
           invoices totaling $7829 (account 8020) are enclosed for your review (attaclunent
           I-G).

            Request: It is requested this finding be removed from the final audit report.

        n.	 Cell phone charges in the amount of$1418 were being charged at 100 percent
            instead of staff allocated percentages. This was an internal oversight that will be
            corrected for 2008 and thereafter beginning 2009.

o	 The PCFO charged $8190 in accounting fees for the completion of the Agreed-Upon
   Procedures (AUP) Audit and Financial Statements for a prior year's campaign.
       i.	 CFC regulations in effect at the time the AUP and financial statements were
           conducted did not allow audit expenses to be charged to the campaign year being
           audited. Guidance was not issued from the Office of Combined Federal
           Campaign Operations (OeFCO) until November 14,2008 (attachment I-H).
           Therefore, the PCFO acted in compliance with regulations and OPM guidance in
           effect at the time the audit was conducted. During this time, regulations required
           accounts be brought to a zero balance at the end of each month. With the new
           guidance now in effect, the PCFO will comply with the application of these
                   expenses by requesting LFCC approval prior to the close of final campaign
                   collections.

                   Request: It is requested this finding be removed from the final audit report.


                                Deleted by OPM-OIG

                         Not Relevant to Final Audit Report




3.	 PCFO Expense Reimbursement Not Properly Authorized
      o	 Effective September 2007, the LFCC has begun reviewing year-to-date expense reports
         (attachment 3-A) at its LFCC meetings and approving expenses as they are incurred. The
          LFCC is very aware of its role as outlined in 5 CFR 950.104.

           Request: It is requested this finding be removed from the final audit report.

4.	 Expenses not Reconcilable to the Approved Budget
       o	 According to 5 CFR 950.105cl the budgetsubmitted to the LFCC for approval was an
          "estimate" of costs required La operate the CFC. Therefore, it is impossible to reconcile
          "actual" expenses to an estimate. CFC regulations which provide guidance on how much
          can be reimbursed to the PCFO states in 5 CFR 950.106a "The PCFO shall recover from
          the 'gross' receipts of the campaign its expenses, approved by the LFCC, reflecting the
           'actual' costs of administering the local campaign:' We have provided supporting
          documentation to the DIG that the $3908 in question were actual CFC expenses and are
          thereby reimbursable. As previously noted in section 3 of this response, beginning
           September 2007, the PCFO has provided the LFCC with year-to-date expense reports
          which is measured against the proposed budget (attachment 3-A).

           Request: It is requested this finding be removed from the final audit report.




                                Deleted by OPM-OIG

                        Not Relevant to Final Audit Report
                                     Deleted by OPM-OIG

                              Not Relevant to Final Audit Report

    6.	 CFC Funds Maintained with United Way Accounts
             o	 Effective February 1,2009 the PCFO has segregated all CFC funds from its United Way
                portfolio of accounts. Enclosed is authorization for the OCFCO granting these funds be
                maintained in analyzed interest bearing accounts (attachment 6-A) as a result of new
                FDIC regulations. Additionally, we are including confirmation from the holding bank
                that a separate CFC account was established (attachment 6-B).

    7.	 Incomplete Donor Lists
           o	 The PCFO recognized the inaccuracy of the donor list provided to recipient charities
                 during the 2006 campaign. Beginning with the 2008 campaign, this report has been
                 modified to identify the federation and member agency where the donor information
                 should be sent.

     8.	 Local Eligibility Solicitation Process
            o	 Beginning March 2008, the LFCC will retain electronic copies of public notices listed on
                its website.

Please let me know if there is any additional information needed to complete the final audit report. Once
the new Chief Financial Officer comes onboard in February 2009,                        Senior Director of
Public Sector Campaigns, will insure all compliances made in this response are carried forward.




Z~IY'!/nf/
. Kim Hall
  Interim Chief Financial Officer
                                                                                                           Appendix B




                            Combined Federal Campaign of North Central Texas

February 10,2009


Office of Personnel Management
Office of the Inspector General
Attention: • •     iII••••
1900 E Street NW, Room 6400
Washington, DC 20415-1100

Dear M r . _ :

In response to your email dated February 51h titled "OPM-OlG Audit Response" for the 2005 and 2006
campaigns for Combined Federal Campaign of North Central Texas (CFCNCTX) CFC Code 0839, we
are submitting the following responses and attachments.

      I.	 Unallowable Campaign Expenses ($1,987)
              a	   Documentation tested during audit review resulted in a calculation inconsistent with
                   method applied. OIG requests payroll registers for March 2006 and July 2006 through
                   February 2007.
                       I.	 We have attached the requested payroll registers for further review by OIG.


                          Request: Pending OIG review, it is requested this finding be removed from the
                           final audit report as immaterial.

      2.	 Unsupported Out-or-town E:xpenses ($3,025)
             o	 Out-of-town expenses totaling $3025 could not be verified as CFC related expenses.
                    i.	 Attached is supporting documentation and general ledger entries which identifies
                        these expenses as CFC specific..

                          Request: It is requested this finding be removed from the final audit report.

If there are any further questions ~ G audit findings for CFCNCTX please contact Karra
Guess, Chief Financial Officer, a _ _ Final audit reports should be sent to:
         Combined FederaJ Campaign of North Central Texas
            c/o: • • • • • • • • •
           1800 Nmth Lamar Street

           Dallas, TX 75202


Sincerel


       ,'r----­
Kim Hall
Interim Chief Financial Officer

         _LFCCChairman
CC:
         _ _ _iJIG




 1800 North Lamar Street· Dallas, TX 75202· Ph (214) 978-0024 • FAX (214) 978-9056· www.cfcnctx.org
